<html>
<title> - [H.A.S.C. No. 112-70]AFGHAN NATIONAL SECURITY FORCES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-70]

 
                    AFGHAN NATIONAL SECURITY FORCES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 22, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
70-786                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b7d0c7d8f7d4c2c4c3dfd2dbc799d4d8da99">[email&#160;protected]</a>  


                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     BETTY SUTTON, Ohio
BOBBY SCHILLING, Illinois            COLLEEN HANABUSA, Hawaii
JON RUNYAN, New Jersey               KATHLEEN C. HOCHUL, New York
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 Ben Runkle, Professional Staff Member
                Michael Casey, Professional Staff Member
                    Lauren Hauhn, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, September 22, 2011, Afghan National Security Forces....     1

Appendix:

Thursday, September 22, 2011.....................................    25
                              ----------                              

                      THURSDAY, SEPTEMBER 22, 2011
                    AFGHAN NATIONAL SECURITY FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Flournoy, Hon. Michele, Under Secretary of Defense for Policy, 
  U.S. Department of Defense.....................................     2
Neller, Lt. Gen. Robert B., USMC, Director for Operations, J-3, 
  Joint Staff....................................................     5

                                APPENDIX

Prepared Statements:

    Flournoy, Hon. Michele.......................................    32
    McKeon, Hon. Howard P. ``Buck''..............................    29
    Neller, Lt. Gen. Robert B....................................    38
    Smith, Hon. Adam.............................................    30

Documents Submitted for the Record:

    Statement for the Record Submitted by Hon. Howard P. ``Buck'' 
      McKeon on Behalf of Dante and Carolyn Acosta...............    49

Witness Responses to Questions Asked During the Hearing:

    Mrs. Davis...................................................    53
    Ms. Hanabusa.................................................    54
    Mr. West.....................................................    53

Questions Submitted by Members Post Hearing:

    Mr. Franks...................................................    59
    Mr. McKeon...................................................    57
    Mr. Owens....................................................    59
    Mr. Schilling................................................    61
                    AFGHAN NATIONAL SECURITY FORCES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Thursday, September 22, 2011.
    The committee met, pursuant to call, at 1:10 p.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good afternoon. The House Armed Services Committee meets 
today to receive testimony on the current status and future 
challenges for the Afghan National Security Forces.
    There is perhaps no issue more critical to our long-term 
strategic success in Afghanistan than the development of a 
professional Afghan National Army and Afghan National Police.
    Numerous administration officials, senior military leaders 
and independent experts have appeared before this committee and 
attested to the progress made by our troops in securing areas 
of Afghanistan and in training the Afghan National Security 
Forces.
    Many members of this committee have seen this progress 
firsthand. However, significant challenges remain to threaten 
our strategic success. The Afghan National Police remain 
plagued by serious corruption and some units are alleged to be 
controlled by warlords or other power brokers.
    The ANSF [Afghan National Security Forces] continues to be 
plagued by high attrition rates, as during the first 6 months 
of this year more than 24,000 soldiers walked off the job, 
which is nearly 3 percent of the total ANA [Afghan National 
Army] per month.
    Finally significant questions remain about the ANSF's 
sustainability and whether the Afghan economy will be able to 
support the envisioned 352,000-man force. This is particularly 
a daunting challenge in the wake of recent reports at the 
Department of Defense, responding to Administration pressure 
for spending cuts is planning to slash U.S. assistance to 
Afghanistan's army and police by more than half over the next 3 
years.
    Secretary Flournoy and General Neller, thank you for taking 
the time to share your views on this issue with us and for you 
service.
    I look forward to hearing your testimony. Finally I would 
like to acknowledge the presence today of Mr. Dante Acosta, 
whose son Rudy was killed this March while serving in Kandahar.
    Mr. Acosta, thank you for joining us today. On behalf of 
the committee members and staff I would like to express our 
sincerest appreciation for Rudy's service, our deepest 
condolences to you and your family on his behalf. Our prayers 
are with you and all those who have lost loved ones in this 
conflict and in Iraq.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 29.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    I too pass along my condolences and thank you for being 
with us here today. And thank you for your son's service.
    I have a longer statement which I will submit for the 
record but I understand we are in a bit of a time crunch so I 
will just submit that statement for the record and concur with 
the chairman's remarks about how important this is. Obviously 
if we are going to be able to transition our troops home we 
need to make sure that there is a reliable security force left 
behind and this training is incredibly important and I thank 
Secretary Flournoy for her work and leadership and General 
Neller as well. And I look forward to your testimony.
    And with that I yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 30.]
    The Chairman. Thank you. We are going to have a vote any 
time possibly at 1:30, and there is a Republican conference 
also at the end of votes, and so we are going to appreciate 
your indulgence and we will get right into your testimonies and 
as much of the questioning as we can.
    Secretary Flournoy.

STATEMENT OF HON. MICHELE FLOURNOY, UNDER SECRETARY OF DEFENSE 
             FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Secretary Flournoy. Chairman McKeon, Ranking Member Smith 
and distinguished members of the committee, thank you once 
again for having me here today.
    I want to begin by also expressing my personal condolences 
to the Acosta family. I also want to express condolences to the 
family of former Afghan President Rabbani. He was a peacemaker 
who shared the vision of the vast majority of his nation's 
people and that is a vision of a peaceful and stable 
Afghanistan.
    His senseless killing must be seen for what it is. It was a 
desperate act by an insurgency that overall was losing ground.
    As the insurgents' ability to control territory has 
diminished, they are turning to more asymmetric efforts such as 
assassinations and high-profile attacks designed to capture 
public and media attention. Such incidents cannot obscure the 
larger truth which is that the number of insurgent attacks in 
Afghanistan as a whole is trending downward.
    In fact, insurgent attacks in July and August declined 
sharply in most regions including Kabul compared to the same 
months in 2010, with the exception of a modest increase in the 
eastern region.
    A major reason for this progress is the development I came 
to speak to you about today, the improvement in the quantity 
and the quality of the Afghan National Security Forces 
comprised of both the army and the police.
    This improvement is due in large part to NATO's Training 
Mission Afghanistan or NTM-A which we established in 2009. 
Under the command of General Bill Caldwell, NTM-A has brought 
disparate efforts under one command and established iterative, 
professional and standards-based training, none of which 
existed before. So the ANSF is on track to reach its October 
goal of 305,600 soldiers and police.
    As we have been meeting our numerical goals we have also 
focused intensely on improving the quality of the force, 
especially in the areas of literacy and operational 
performance.
    NTM-A now estimates that the ANSF will achieve 50 percent 
overall literacy rates at the third-grade level in 2012 with 
over 70,000 police and 55,900 soldiers receiving some level of 
literacy training.
    This represents a pretty major accomplishment in a country 
where the literacy rate of the recruiting population of 18- to 
40-year-olds is only 14 percent. Through a range of training 
and mentoring programs we are reducing the shortage of trained 
NCOs [non-commissioned officers] and officers. The ANSF NCO and 
officer corps grew by over 20,000 new leaders just over the 
last 2 years.
    Of equal importance has been our effort to improve the 
ANSF's operational performance in the field. Partnering Afghan 
forces and U.S. and coalition forces on the battlefield has 
greatly accelerated the ANSF's development.
    In January of this year there were 124 Afghan battalions 
and headquarters elements rated as effective with coalition 
advisers or effective with coalition assistance. As of August 
there are now 147 units with these ratings out of 184 units 
assessed. And we expect that trend to continue if not 
accelerate.
    These are not mere statistics. We have seen progress where 
it matters most which is on the ground in the campaign.
    Despite the Taliban's claim that they intend to focus on 
transitioned provinces the ANSF who are now in the lead in 
those provinces are demonstrating effectiveness in contested 
areas such Lashkar Gah, where violence in August 2011 was 60 
percent lower than in August 2010, and where the ANSF have been 
fully responsible for the successful defeat of Taliban efforts 
to reverse transition.
    Most recently, during the attack on the U.S. embassy and 
NATO [North Atlantic Treaty Organization] headquarters earlier 
this month in Kabul, the Afghan National Police took the lead 
in responding, and carried out a complex operation that 
involved clearing placed munitions from each level of a 
multistory building, and killing all 11 attackers. Tragically, 
5 police officers, as well as 11 Afghan civilians, were killed 
in this attack by Taliban insurgents.
    But here I want to note the continuing sacrifices of 
thousands of dedicated Afghan Army and police officers and 
their families. Afghan security force casualties over the last 
year have included over 2,500 killed and 6,000 wounded. The 
ANSF are increasingly on the front lines, and bearing the brunt 
of the hard fighting that continues. Their willingness to fight 
and die for their country is testimony to the determination we 
see in the new ANSF that we are helping to build.
    Challenges do, however, remain and we are working with our 
Afghan partners to address them. One of them is attrition which 
you mentioned. Monthly attrition in the Army has averaged 2.3 
percent since November of 2009. Over the past 12 months, ANA 
attrition has ranged as high as 3.2 percent and as low as 1.9 
percent.
    Average monthly attrition in the Afghan National Police 
since November 2009 has been on target at 1.4 percent, and for 
the past 12 months it has ranged between 1.9 percent and 1.0 
percent.
    Actual attrition is actually less than what these figures 
would reflect, as many of the ANSF personnel who have earlier 
been taken off the rolls actually do return to their units. In 
addition, working with the Afghans, we continue to implement a 
number of programs to reduce attrition, including providing 
``soldier-care'' training for leaders, extending the leave 
policy, and implementing predictable rotation cycles for units.
    Another key focus is building the enablers that will 
ultimately make the ANSF truly capable of independent 
operations. We have established 12 specialty schools that are 
training Afghans in the areas ranging from engineering, to 
intelligence, to logistics and to human resources.
    Finally, again, as you mentioned there is the challenge of 
sustainability. Here, we are doing our part to ensure that we 
are good stewards of taxpayer dollars and that we can put the 
ANSF on a financially sustainable footing.
    And here rather than saying that I would disagree with the 
characterization that we had slashed our assistance, rather 
what we are doing is reducing costs and finding efficiencies 
through several efforts.
    These efforts include ``Afghan First'' initiatives, 
including purchasing locally produced furniture, boots, and 
uniforms. NTM-A has also found efficiencies within Afghan units 
by reevaluating equipping requirements based on lessons learned 
from the field. NMT-A has also adjusted building standards to a 
more sustainable local norm.
    Some examples of these Afghan standards are fielding wash 
basins and clotheslines in place of modern washing machines, 
and installing ceiling fans instead of air conditioners. These 
steps clearly reduce procurement costs, maintenance 
requirements, but they also reduce long-term demand for 
electricity and fuel.
    Due to these and other similar savings efforts, there will 
be a $1.6 billion reduction in the fiscal year 2012 budget 
request for funding to develop the ANSF. But here again I want 
to emphasize there is no reduction in our commitment and no 
reduction in the quality of the training of the program. These 
are cost saving efficiencies that we believe are consistent 
with the sustainability that we all seek.
    We anticipate a decrease in estimated future-year budget 
requests as well based on further efficiencies going ahead.
    The coming years will be critical for the ANSF, as they 
know that they will be in charge of providing security for the 
Afghan people in 2014. The ANSF has already begun assuming the 
security lead for over 25 percent of the Afghan population with 
the transition of seven provinces and municipalities this past 
summer.
    Later this fall, we expect that President Karzai will 
receive the next set of transition recommendations from NATO 
and his Afghan ministers. And the next tranche could result in 
as much as 50 percent of the Afghan population living in 
transitioned areas, that is, areas where the ANSF is in the 
lead for security with our support.
    In sum, we would say that ANSF development is on track as a 
central element of our strategy. We are meeting our growth 
goals and are continuing to improve quality and performance. 
And the ANA and ANP [Afghan National Police], most importantly, 
are stepping up to take more responsibility in the field, 
enabling both the transition process to proceed and the 
drawdown of our surge forces to get underway.
    I want to close by offering my thanks. Your work here on 
this committee, along with the tireless efforts of our service 
men and women and the civilian volunteers in the field, is 
building the foundation for meeting our core goal in 
Afghanistan, of disrupting, dismantling, and defeating Al Qaeda 
and ensuring that Afghanistan is never again a safe haven for 
terrorists who could threaten the United States.
    Thank you.
    [The prepared statement of Secretary Flournoy can be found 
in the Appendix on page 32.]
    The Chairman. Thank you.
    General Neller.

  STATEMENT OF LT. GEN. ROBERT B. NELLER, USMC, DIRECTOR FOR 
                  OPERATIONS, J-3, JOINT STAFF

    General Neller. Mr. Chairman, Ranking Member Smith, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today along with Secretary 
Flournoy to report on the Afghan Security Forces.
    I would also like to add that Mr. Acosta and the families 
of all that we have lost in this fight. I want them to know 
that we the Nation and we will never forget the sacrifices they 
and their loved ones have made in this fight.
    The Afghan National Security Force remains the linchpin of 
our strategy in Afghanistan and as successful as the outcome 
there depends on their growth and success.
    In terms of building this force we have realized some 
successes that can only, in my view, be described as 
remarkable, at least in the last 2 years. As Afghan soldiers 
and police continue to fight side by side with U.S. and 
coalition forces this upper trend, and not just quantity, has 
been complemented by a steady improvement in their quality and 
effectiveness.
    These improvements have taken many months. The positive and 
aggressive actions of both the NATO Training Mission 
Afghanistan led by General Caldwell and the International 
Security Assistance Force Command, NTM-A on the front end and 
with the initial training and the capacity building and now 
especially training in leader development and the IJC [ISAF 
Joint Command] later through aggressive partnering and 
mentoring efforts in the field have teamed together to create 
this success.
    Now, this building of this force has allowed ISAF 
[International Security Assistance Force] and the ANSF to 
transition their focus from force generation, just creating 
more soldiers, to actually professionalization and 
effectiveness. This is an important shift in focus.
    Ultimately, force professionalization will produce a more 
effective and credible ANSF, which will in turn lead to better 
security for the Afghan people and enhance legitimacy for their 
government and its security forces in the eyes of Afghans 
everywhere.
    Mr. Chairman, this important effort to build a capable and 
professional and sustainable Afghan security force is directly 
tied to Afghan forces assuming primary responsibility for 
security or in its operational term, the transition of security 
across the whole of Afghanistan by the end of 2014.
    Progress in the realm of transition, a word that quite 
frankly, you didn't hear spoken too often 2 to 3 years ago is 
an assessment of the security situation, the capacity and 
effectiveness of the ANSF, the capacity of the government at 
national and provincial levels, and the preference of the 
Afghan Government can already be seen on the ground in seven 
initial geographic areas.
    Subsequent transition areas will be announced, we believe, 
by the government of Afghanistan in the next few months. That 
said, while tangible progress continues, there are challenges. 
These challenges are real and will require our continued full 
measure of attention.
    Conventional wisdom in Afghanistan labels Afghan leader 
development as the biggest challenge facing the ANSF today. 
Attrition, as you mentioned, the unanticipated loss of an 
officer, or an NCO, or a soldier, also remains a problem, as 
Afghan soldiers and police are dropped from the rolls, depart 
to tend to family matters, may die in combat, fight for 
extended periods in high-risk areas, and react to pay and leave 
policies, or in some cases just poor leadership.
    Literacy is an essential enabler of the professionalization 
of the ANSF and also remains a challenge considering 28 percent 
of the Afghan population is literate and 86 percent of the new 
ANSF recruits are illiterate.
    That said, we have seen improvements in these areas, thanks 
to the superlative and unwavering efforts of ISAF and NTM-A in 
identifying and aggressively addressing these problems. 
Additional improvements remain ahead.
    In closing, I want to reiterate that an operationally 
capable and professional Afghan National Security Force is 
critical to the long-term stability and security of 
Afghanistan. The resources that you and the members of this 
committee have made available and continue to make available 
for this key component of the overall effort remain critical to 
achieving our ends.
    Thank you for the opportunity to provide these comments and 
be with you today and I look forward to answering your 
questions.
    [The prepared statement of General Neller can be found in 
the Appendix on page 38.]
    The Chairman. Thank you.
    Before I begin with my questions, I ask for unanimous 
consent to enter into the record my full statement along with 
Mr. Smith's and a statement that Mr. Acosta has into the 
record. No objections, so ordered.
    [The information referred to can be found in the Appendix 
on page 49.]
    The Chairman. The safety of the troops is obviously of a 
foremost concern to all members of this committee. Although, we 
recognize that military campaigns such as the one our brave 
service men and women are currently fighting in Afghanistan are 
inherently dangerous, it is crucial that we do everything 
possible to eliminate avoidable risk so that they can return 
home safely to their loved ones.
    On March 19th of this year, one of my constituents, 
Specialist Rudy Acosta, 19 years old, was killed by small arms 
fire inflicted by an Afghan security contractor on his forward 
operating base in Kandahar. Tragically, specialist Acosta's 
death was not an isolated incident.
    As of the first half of 2011, there were nine such ``Green-
on-Blue'' attacks by Afghan forces on U.S. troops, whereas from 
2005 to 2010 there were 13 such attacks.
    General Neller, is this traumatic rise in attacks an 
indication that the Taliban is successfully implementing a 
strategy of infiltrating the ANSF? What procedures are 
currently in place to vet ANSF for either pre-existing 
affiliations with the Taliban or extremist groups?
    How do we monitor Afghan units or personnel for such 
affiliations or for more common emotional issues once they are 
designated for partnership in the U.S. Forces? And given the 
importance of U.S.-ANSF partnership to achieving our strategic 
objectives in Afghanistan, are you confident that we are doing 
everything we can to minimize the risk of such future green-on-
blue attacks?
    General Neller. Mr. Chairman, obviously, this is in an area 
of concern for all leadership and again, our condolences not 
just to the Acostas but to any member of the Armed Forces who 
lost their life. But I think it--clearly, this is something 
that you would not anticipate happening when you are there to 
support our allies.
    That said, it is a problem and it has got everyone's 
attention and the idea of an inside threat, as it is called, is 
something that we have to deal with, it is a reality. What are 
the causes of these--there is any number of causes, I don't 
think it is necessarily 100 percent Taliban infiltrators. In 
fact, the evidence that we have to the contrary that it is a 
variety of things as you mentioned, stress, some are 
undetermined because in many cases the actor in these cases is 
killed at the time. So we really can't determine what was their 
motive.
    There are some impersonators. So what have we done? There 
is an eight-step process that has been put in place some time 
ago, but I think it has become more and more embedded in the 
process of recruiting personnel to join both the Afghan army 
and the Afghan police, starts with proof of identification 
letters from their tribe or from their leaders, a biometrical 
introduction--biometrics where they are introduced in the 
biometric database to see if they have a record or a police 
record.
    These procedures are now fully indoctrinated. In fact, it 
caused the Afghan Army in June to not be able to make their 
recruiting goal for the first time. They had to disqualify at 
least temporarily but in some cases permanently people that 
tried to enter into the army.
    So I believe that the process is improving and it is 
working to do a better job of vetting who's applying to join 
the Afghan Security Forces. There are other things we have also 
increased, both on our side and on the Afghan side, the number 
of counterintelligence personnel that are there to canvas and 
watch the units and check and follow up on people that have 
concerns about the reliability and motivations of people that 
they are serving.
    Or something as simple as trying to do a better job of 
controlling uniforms. We know it is not just blue-on-green, but 
there are a number of green-on-green where Taliban can or 
someone who would want to do harm to the Afghan Security 
Forces, could dress up as a policeman or a soldier and gain 
entrance into a facility.
    So, although, it is never going to be 100 percent, I wish I 
could tell you that it would be 100 percent. I believe that 
those efforts vetting, the biometrics, the better control of 
uniforms, the use of counterintelligence, better awareness of 
the force. I think the situation has mitigated the risk about 
to the degree that we can.
    The real dilemma here though is this, here we are, 
partnering, mentoring, working with Afghan Security Forces and 
you--in a way you have got to trust them. And so, Americans, we 
want to trust people. We want to believe that they have the 
same motivation we do.
    And so, unfortunately, on these few occasions, too many but 
a few occasions this has happened where it hasn't worked out 
that way. So we continue to watch this. We continue to be aware 
of it. It is part of the training that we do making sure that 
we do what we can to mitigate the risk within our Force, at the 
same time we still have to work with the Afghans and move 
forward.
    The Chairman. Thank you. I will submit my other questions 
for the record.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I just want to hear a 
little bit better understanding on how the transition is 
working as we train the ANSF, how we are transitioning, moving 
responsibilities that are currently held by U.S. ISAF forces 
over to Afghan forces because, obviously, that is the ultimate 
goal is for us to be able to draw down and them to take over 
security responsibilities.
    I think you mentioned some of these in your testimony, but 
specify some of the responsibilities that had been done by our 
forces that are now being done by ANSF and what the plan going 
forward for that transition. Is how--I guess what I am trying 
to get at is how can we measure the progress here? How can we 
show, ``Look, here is how our responsibilities are coming down 
because of the capabilities that ANSF now has.'' And that is 
what is going to put us on the pathway to being able to 
responsibly draw down.
    Secretary Flournoy. Oh, if I will start out and let General 
Neller follow. I do think that one of the measures of success 
is as we transition, the reduction in ISAF support for the 
Afghan unit in question will be a gradual process. So, the more 
independent they become over time is one measure of success. 
The, you know, needing less and less support from us over time.
    A second one is the amount of violence in the area, once it 
is transitioned and that is why I tried to give a couple of 
examples of areas that were transitioned that were still 
contested, that we knew the Taliban would target that were 
tested once the ANSF was in the lead.
    And yet, the ANSF was able to handle the attacks. We--in a 
couple--in several of these cases we offered assistance and 
they said, ``No, we got it.'' And they actually performed quite 
well because that will also be an----
    Mr. Smith. And what is our presence in those areas when we 
put----
    Secretary Flournoy. It really varies from place to place.
    Mr. Smith. Okay.
    Secretary Flournoy. And some of these early transitioners, 
there is very little ISAF presence historically. In other 
cases, there--it is quite significant, so it really varies from 
place to place.
    Mr. Smith. And how do you see that progressing forward in 
the months and in years ahead? Either, I guess, geographically, 
would be one way of looking at it. What is sort of our plan 
when where we think we can begin to transition over to ANSF 
responsibility? Then what are sort of the hard areas where, you 
know, you are not sure--well, I don't want to say, ``You are 
not sure we are going to get there,'' but to the greatest 
challenge, in terms of getting there, in terms of us being able 
to draw back and really turn over substantial responsibility.
    Secretary Flournoy. There are a number of conditions-based 
metrics that are being used to evaluate the security 
conditions, the governance conditions, this overall readiness 
of an area to transition. And that will suggest a number of 
areas that are ready.
    In addition, I think there maybe some of the harder areas 
that we want to transition earlier, or at least get started on 
while we have more forces in place and so forth. So it is going 
to be a mixture. It is very much integrated with COMISAF's 
[Commander of the ISAF] campaign plan. I don't know if you want 
to add anything in that regard.
    Mr. Smith. General.
    General Neller. Yes, Sir. There are a couple of processes 
that facilitate this. One is that--every unit that is 
partnered, every coalition unit that is partnered with an 
Afghan unit does an evaluations called the CUAT, Commanders 
Unit Assessment Tool. And they kind of lay out how long they 
think it will before they are ready and they rate them. And 
Secretary Flournoy mentioned, you know, can they work with 
partners? Can they work with some partner assistance?
    Can they do it independently? Although, I think mostly, 
independently is pretty difficult because we have closer 
support and a lot of indirect fire support, ISR [intelligence, 
surveillance and reconnaissance], medevac [medical evacuation] 
capabilities that quite frankly they don't have.
    But they get to a certain point and that it would--the 
coalition would say, I think they are ready and we are prepared 
to do this. At the same time, at the governmental level, at the 
ISAF and the Afghan government level, there is a board called 
the Joint Afghan-NATO Inteqal, which means transition board. 
And that is the board that is going to meet now or in the next 
few weeks that will make recommendations on what areas, either 
provinces or districts will be nominated for the next group of 
transition.
    Some of them, again, as the Secretary said, the last 
group--Lashkar Gah--if you remember Lashkar Gah not a year ago 
was a semi-contested area. There was an attack there right 
after the transition and the Afghans handled the security.
    Now, this doesn't mean that we might not still have some 
advisers or people down there as liaisons to provide coalition 
effects. That we don't have an adjacent unit in some distance 
away that is prepared to QRF [Quick Reaction Force] if they ask 
for it and in most cases, they have not. They have not asked 
for it.
    They might ask for air support or a medevac or things like 
that. So it is a coherent process where they, we look at the 
unit. We make a recommendation. We collectively, with the 
Afghanis, look at the areas that we think that are ready 
security-wise. But it is not just the low-hanging areas.
    I think we are going to--I think General Allen's ideas 
because he wants to get out in front on some areas and be more 
contested. Now, you ask which areas would be last. I think, 
right now, just based on the level of violence, probably, areas 
in RC [Regional Command] East would be the last ones, unless we 
wanted to transition them now in order to try to get ahead of 
the game.
    Mr. Smith. Great. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Thornberry. [Presiding.] The gentleman from Maryland.
    Mr. Bartlett. Thank you.
    Many of the more junior members of our committee are very 
faithful in their attendance here. Frequently, time runs out, 
they don't have a chance to answer their questions. Mr. West is 
one of the most faithful of these. And since he is the most 
junior member here at the gavel fall, I would like to yield him 
my time.
    Mr. West. Thank you, Sir.
    And thank you, Mr. Chairman and Ranking Member.
    And thank you, Madam Secretary and General Neller, it is 
good to see you again in different circumstances, obviously.
    From June of 2005 to November of 2007, I had the 
opportunity to train the Afghan 205th Corps down in Kandahar. 
We were able to stand up the second and third brigades in the 
2.5 years I was there.
    I am looking at the rating definition levels, the ones here 
from February of 2001. My question that I would ask from 
February of 2001 to now, do we have any, you know, update as 
far as the progress of let's say maybe the 201st Corps who is a 
little bit, you know, established a little bit sooner or the 
203rd Corps, as far as their abilities to be able to do 
operations?
    Maybe not so much independently, but a little bit better 
with advisers and also I would like to ask a question about the 
status of the commando kandaks [battalions], which was 
something that we stood up.
    General Neller. Congressman West, I have got that data 
somewhere in this book and--we have got the ratings of all 
those, I would respectfully ask if I could take that for the 
record and get back to you on where those units stand.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mr. West. Okay.
    General Neller. I actually have some personal experience 
with the 201st Corps. And I believe that there is a chart in 
here that I can make available to you that will show that they 
are not at the highest level, but the next one below that, as 
far as the commandos, I think, the commando kandaks--
particularly those that are associated with our Special 
Operations Forces are probably--my assessment is again, I can 
show you the data but that they are ahead of the regular ANA 
just because of the kind of the student-to-instructor ratio 
that they get and that the great number of the actions that are 
going on with the Special Operations Forces to address specific 
targets are all involved in 100-percent partner.
    So there are Afghans involved. So I think that is a success 
story just like it is. It was and continues to be in Iraq.
    Mr. West. Okay. The other question I had back in July we 
had the opportunity to do a CODEL [Congressional Delegation] 
and we went open to the Sangin Valley area. And if I could, 
what is your assessment do you see right now with the Afghan 
Local Police? And is that--do you think going to be very 
successful getting down into the district levels with this 
militia type of groups?
    Secretary Flournoy. Having just visited two of those sites 
myself, I will give you some impressions. We now have about 
7,800 Afghan Local Police in 46 districts. The sites are often 
in very rural or remote areas where there is very little Afghan 
police or army and certainly and often very little ISAF 
present.
    What we have learned over time is importance of oversights 
for these units. We or they are now nominated by the local 
shore council. They were vetted by the ISAF members. They are 
biometrically enrolled. They are trained and monitored and 
mentored by ISAF units who are paired with them. And there is 
now a connection to the Afghan Ministry of Interior. So they 
report to the district police.
    In most of these areas, the official ALP [Afghan Local 
Police] programs that are closely monitored have been extremely 
successful in denying territory and roots and freedom of 
movement to the Taliban.
    We believe they are covering about 25 percent of the 
population right now and they are slated to go further, so 
that's a very important part of the strategy going forward.
    Mr. West. Do you think we will be able to sustain it?
    Secretary Flournoy. I do. I think that there have been some 
allegations coming out in some reports. We are--we take this 
very seriously. We are investigating those. But most of them 
pertain to ALP-like programs that aren't actually the programs 
that are very closely monitored by our Special Operations 
Forces.
    Mr. West. And last question, I have 30 seconds. Are we 
seeing any friction with the different variations of ANP and 
cop, board of police and now the ALP? I mean, do we still--I 
mean, are we getting them operating on the same sheet of music 
because there was some friction between those respective groups 
sometime ago.
    Secretary Flournoy. You know, again, what I have seen is 
that all of these are now, I think, under the Ministry of 
Interior. I would say there are different stages of 
development, but I think there is more integration in terms of 
how they work together than has been the case in the past and 
some very useful kind of role differentiation among them.
    Mr. West. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Thornberry. I thank the gentleman.
    I will just comment. We have heard from a number of people 
that that is among the most promising developments in 
Afghanistan, the village stability operations. And as a matter 
of fact, we had testimony in a subcommittee just this morning 
that said that.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman and thank the 
witnesses for their testimony.
    Under Secretary Flournoy, on the other side of the Capitol 
today, Admiral Mullen was testifying this morning about the 
attack in Kabul which you referred to as well. And he was 
pretty blunt about the fact that he attributed to exported 
violence from Pakistan so that the Haqqani Network which he 
described as a virtual arm of the ISI [Inter-Services 
Intelligence] was responsible for it. I mean, that wasn't sort 
of in your testimony in terms of that issue. And I was 
wondering if you would have any comment on his testimony today.
    Secretary Flournoy. Well, I would agree that the Haqqani 
Network's role in recent attacks both on the U.S. Embassy, also 
on our forces in Wardak province and on the ISAF compound have 
frankly raised very significant concerns, particularly about 
their ties to elements of the Pakistani government.
    As the Secretary said, as Chairman Mullen has said, these 
are--these attacks are unacceptable and we are going to do 
everything we can to defend our Forces and our civilians 
serving on the ground. And we will not allow these types of 
attacks to go on. The links between the Haqqani Network and the 
Pakistani government need to stop. And we are having a very, 
very frank set of discussions with the Pakistanis at multiple 
levels about this issue.
    Mr. Courtney. Because, I mean, as your testimony stated, I 
mean, the core goal here is disrupting, dismantling and 
defeating Al Qaeda. But if, you know, the most recent incidents 
are being driven by other factors, I mean, and, you know, from 
a country that is receiving aid from the U.S., I mean, it seems 
that building up the Afghan forces is a good thing and their 
military. But, I mean, you know, we shouldn't be doing that to 
deal with the force that we hopefully have some ability to 
influence.
    Secretary Flournoy. We agree that we have to address the 
problem of the sanctuaries in Pakistan. In the case of the 
Haqqani Network, they are very, very closely aligned with Al 
Qaeda. And so they have often provided safe haven and support 
to Al Qaeda and vice versa.
    So we see them in the same category, if you will, as a very 
close affiliate that needs to be dealt with inside Pakistan. 
Truth be told, these groups are very much a threat to Pakistan 
as well. Pakistan has had enormous sacrifices as a result of 
terrorism turned inward in their own cities. So this is an area 
where we believe we need to have strong cooperation and we are 
working very hard towards that end.
    Mr. Courtney. Thank you. At one of our last hearings on 
Afghanistan, we had retired Under Secretary of the Army Bing 
West, I think, testified who, again, was very strong in terms 
of his support for training Afghani forces. He was somebody who 
spent quite a bit of time in Afghanistan on the ground with our 
military.
    But he raised a pretty strong point about whether or not we 
need as large a footprint to accomplish that goal as well as 
the goal of, you know, what our interests are there. And I 
guess, you know, again, he had sort of posited some ideas about 
trying to create some funds for the Afghan government for 
future security force funding so that they would have some 
confidence that we are not sort of leaving abruptly.
    But, again, he was very adamant that, you know, we don't 
need the troop levels even after the President's announced 
drawdown to accomplish those goals. And just I guess I would 
ask you that question is whether or not the progress that we 
have made, the horizon ahead of us, whether or not we need to 
have the size of footprint that exists today and into next 
year.
    Secretary Flournoy. There are two elements of the 
President's strategy that really have to work hand in hand. One 
is our efforts in ISAF with the Afghans to degrade the 
insurgency, the other is our effort to build up the ANSF.
    And the truth is we have to help degrade the insurgency to 
a level such that the newly developed ANSF can handle it. And 
so it is striking that balance that is so critical in 
continuing with the campaign and the transition and the 
beginning of the drawdown of our surge forces. And so we have 
to keep those things in balance.
    I think the President's decision about the scope and scale 
of the drawdown was very much based on keeping those elements 
in balance so that we certainly transition to the Afghans as 
soon as they are ready and able to be successful, but that we 
don't go--we don't run ahead of or outstrip their capability 
and therefore create space for the insurgency to be revived.
    Mr. Thornberry. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Flournoy, General Neller, thank you so much for 
joining us today. I want to build a little bit on a series of 
questions that you have been asked about ANSF capability and I 
hear a lot about transition. But to me, there needs to be some 
more definition.
    When do you believe that the Afghans will be able to act 
independently of U.S. and NATO forces in several levels? One is 
in planning and executing missions. And will they be able to do 
that without U.S. and NATO forces? In other words, can they 
plan and execute missions by themselves?
    NATO's been there now for 2 years in training security 
forces and the Army. We want to look at how much longer is that 
effort going to be needed to make sure that ANSF has the 
capability to function independently. We talk about 
transitioning as they are capable. The question is when do we 
believe that they will be fully capable to do this on their 
own?
    Secretary Flournoy. I will ask General Neller to weigh in 
on this as well. But, you know, I think that many of the units 
that are improving their capability going from, you know, 
effective with coalition assistance to effective with advice to 
independent.
    When they get to that independent level, that means they 
are capable of planning and executing missions on, you know, by 
themselves with one caveat. And this is where the continued 
support of enablers.
    Some of--we have begun this effort to develop Afghan 
enablers, that will take some time. So for a while, they will 
continue to be dependent on our enabling capabilities.
    But we expect that by the completion of the transition 
period, the vast majority of Afghan units will be either in 
that independent category or simply effective with just some 
advisers embedded to assist but without a lot of other support 
beyond enablers.
    Mr. Wittman. How many units right now are categorized as 
being able to operate independently? That is both mission 
planning and execution. General Neller.
    General Neller. I am aware of one that is categorized as 
independent. Now, there are a number that can operate with 
advisers--in the adviser role, I think that you asked two 
questions, Congressman, at least that I heard. Can they plan 
independently and can they operate independently?
    I think many of the ones that are operating with just 
advisers, they are doing their own planning. Now, they may have 
some oversight and assistance from their advisers or if they 
are partnered--have a partner unit and they may have the lead 
and they have a lead for over half of the operations when we go 
out with coalition forces.
    Actually, they will function independently in the pure 
sense of the word. I go back to what the Secretary said. You 
know, until they develop their own fixed-wing close air support 
capability, their flyers' capability, medical, medevac, ISR and 
those things, then those are the capabilities that there is--
they--I think they will still be dependent upon us at least 
until 2014.
    And I think that is why there are discussions ongoing now 
as I understand it to develop a longer term relationship with 
the Afghanistan government so that we can continue to support 
them and they know that we are there, that we are not at 2014, 
that this is just--we are out, completely gone.
    Mr. Wittman. Let me ask this, too. We look at the current 
force structure, the number we hear on ANSF, there is about 
352,000. The effort, though, is--of their--of that force--is 
questionable since there is still a fairly high attrition rate 
from around 32 percent.
    So the question is of that force structure, how many of 
those individuals are able to fight, shoot, communicate, do all 
the basic tactical efforts that are necessary on the ground for 
them to either function under direction or independently.
    And then a greater question is with our efforts there, 
obviously, we have a number of Special Operations folks on the 
ground. Are we doing anything to provide special training to 
groups within ANSF that have shown that they have the 
propensity to be trained to pursue these asymmetric warfare 
efforts because as we leave, obviously, we have been effective 
on the ground with lot of these Spec Ops [Special Operations] 
operations? Is there a capability that is being planned with 
ANSF to provide their capability after our presence wanes?
    General Neller. I will address the last question first. I 
think that clearly the instate of the Special Operations Forces 
that are partnered with Afghan--Congressman West mentioned the 
command or battalions or their own special forces I think. The 
instate, just like it has been in Iraq, is that eventually when 
we leave, then they will be able to function on their own.
    Now, those other enablers are still critical. And I would 
just mention those enablers are not just critical for the 
Afghans, they are also critical for our coalition partners. You 
know, as they draw down, their concern is as we draw down, 
``Hey, you want to make sure that we still have rotary wing 
support. We still want to make sure you are going to be there 
with the medevac.''
    And because quite frankly, we--the ability to get soldiers 
of all Afghan coalition and our own forces off the battlefield 
in proper medical attention is a huge combat multiplier for 
everybody.
    So I am confident that on the soft side for the Afghans 
that that is the end game. As far as for the conventional 
force, I think it will be a little bit more challenging. That 
said, the current effort with the NATO training mission 
Afghanistan in order to make those things happen is to focus on 
those things you mentioned--shoot, move and communicate. And 
that is going to come through our equipping process, is going 
to come through better training, for example.
    Two years ago, I think the rifle qualification rate for the 
Afghan Army was around 35 percent. Now, it is 95 percent. They 
had different types of weapons. Now, we have standard weapons. 
They had different kinds of uniforms. They had it. Now, the 
Afghan--they are produced in Afghanistan, they got standard 
uniforms.
    So they had NTM-A--yes, we may have lost some time, but we 
are building this thing on the fly or they are building this 
thing on the fly. And I believe they should be commended.
    Now, at the end it is going to be about the next part of 
this build and that is the leadership. So whether they are able 
to operate, whether they are able to shoot, move and 
communicate with some assistance from us, and I will call that 
independent, I think this is going to be dependent on the next 
few years as we--now we have got numbers, we--I think the 
leadership will cause the attrition. I would assess----
    If leadership improves, the quality of NCOs improves, the 
quality of officer training and performance improves, that will 
make sure that the soldiers are better taken care of, that they 
are better equipped, I believe we will see this attrition go 
down which will affect the thing that you are looking for which 
is better performance on the battlefield.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Thornberrgy. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Secretary Flournoy, one of the statements that I want to 
clarify is the fact that the funding that we have been giving 
to the ANSF which is a combination of both the army plus the 
police force. And it is, I think, in your statement it said it 
is about $11.7 billion for 2011 and that is expected to be the 
highest amount that it will ever reach. Is that correct?
    Secretary Flournoy. Yes. We expect future years funding to 
gradually go down as we complete building infrastructure, 
equipping units and so forth and the major, sort of capital 
investment if you will goes down.
    Ms. Hanabusa. Now, one of the issues in terms of building 
sustainability is, of course, to have an Afghan force. But I 
noticed that when we talk about sustainability, we are not 
really making a distinction at that point between the army and 
the--basically like the police force.
    So how is it that we are envisioning that they will begin 
to share that responsibility, if at all? And in addition to 
that, who do we intend to give the support after 2014 to?
    Secretary Flournoy. So I think that the different kinds of 
police and the army are evolving to a pretty well-defined 
division of labor. But as the, you know, as we are increasingly 
successful against the insurgency, the nature of the 
environment is going to change and I expect those roles to 
evolve further.
    For example, you have police right now that are involved in 
counterinsurgency. Over time, I would expect them to have more 
normal sort of peacetime police roles in time. But in terms of 
financial sustainability, it is going to--the Afghans are 
making progress in terms of revenue generation but it is very 
small and they are nowhere near being able to support their 
security forces independently as yet.
    Over time, the ability of the Government to generate 
resources will grow. Over time, the cost of these forces will 
come down. And we have challenged our allies in ISAF to ensure 
that they make a long-term pledge to help support the continued 
development and sustainment of the ANSF.
    So the U.S. will not be alone in footing this bill. The 
bill will go down. We hope that our allies will step up more as 
they transition some of their force commitments out. And we 
also expect the Afghan government will be able to pay for more 
and more.
    That said, we do envision a sustained security assistance 
contribution from the U.S. beyond 2014 but at a much lower 
level.
    Ms. Hanabusa. I guess, I read somewhere that like 90 
percent or 90 some odd percent of the Afghan economy is really 
related to the Allied Forces and--in other words, the 
sustainability of Afghanistan. So as you say that we are trying 
to--as we withdraw and our, quote ``allies'' also withdraw then 
we hope that the economy picks up, assuming that it doesn't in 
the worst-case scenario as you sit here today, what do you 
think that amount will be come 2015, that the United States is 
going to have to cover?
    Secretary Flournoy. We do not have a definitive number. We 
are still scrubbing that to bring it down. But we are working 
that and I believe it will be much lower than the----
    Ms. Hanabusa. How much lower, what is the range?
    Secretary Flournoy. You know, again, we don't--I don't have 
anything that we can rely on. I think we are, you know, we are 
aiming to get it to a much more sustainable rate that is 
commensurate with some of our other major security assistance 
programs elsewhere around the globe.
    But I would just say that, you know, right now the Afghan 
economy is somewhat dependent on international aid and so forth 
and that will continue for some time. But what we do see is 
growth in their agricultural sector, which is about 80 percent 
of the economy.
    Long-term, they also have a vast mineral and energy wealth 
that as that--as they extract that, as they develop industries 
to do that, that will be a very important source of income as 
will customs taxation and other revenue-generating mechanisms.
    Ms. Hanabusa. Mr. Chairman, my time has expired but I would 
like to ask that once the Secretary has scrubbed down her 
numbers as low as she could get them if she would forward it to 
me. Thank you.
    [The information referred to can be found in the Appendix 
on page 54.]
    Mr. Thornberry. I think we would all be interested in that. 
Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you all for being here. I wanted to follow up really 
on the sustainability question if I may. And I think that in 
addition to having the forces available and having the mid-
level officers and all that is important in terms of going 
forward----
    The whole piece of logistics is also an important one. I 
know of--maybe a year ago, a few years ago, we continued to 
read stories that either the engineers were not available and 
you didn't have enough people trained to actually work on the 
equipment.
    And some of that equipment you couldn't find the parts in 
Afghanistan. How are we doing with that so that the logistics 
piece itself is part of the sustainability and where are the 
improvements coming? Where are the gaps?
    General Neller. Congresswoman Davis, I would say that is a 
work in progress, and it is probably not where we would want it 
to be or even the Afghans. But I think in the last 2 years, 
again, NTM-A's effort to develop what really didn't exist 
before, what we call branch schools to include logistics to 
train professional logisticians, to train people who are 
operating the equipment, whether they be artillery or armor or 
aviation or all those things, those capabilities we are 
developing for the Afghans so that they understand the 
importance of maintaining the equipment.
    Simple things like accountability, knowing how many weapons 
you have, how many trucks you have. I am aware that General 
Caldwell right now is trying to get them to turn in vehicles 
that have been damaged. And he is forcing a function for that 
at least as what he put in his weekly newsletters, he is going 
to tell them he needs to have this count, otherwise he is going 
to cut back on their fuel.
    So, there is a number of initiatives whether it be 
education, I know because I am involved in my current billet in 
the force sourcing business that they requested what they call 
this oversight teams that we send people over to help him go 
around and kind of do Inspector General type things on Afghans 
to make sure they have property books, that they know where 
their equipment is and they are actually maintaining it.
    Mrs. Davis. General, what I am worrying is how do we go 
about, do we try and backfill that post-2014 or do we feel that 
we are going to have that capability available? Can I just 
follow up quickly, also with the health care piece of the 
military?
    I know in the comments, about 6,000 or so have been injured 
in addition, of course, to the deaths that the Afghan Army has 
suffered. And are we seeing the training for, caring for their 
soldiers has increased or is that also something that we will 
be forced to follow up on as the date, you know, comes closer.
    General Neller. Let me talk about the equipment first. I 
think your question is--as in the previous question was--okay, 
whatever this cost is after 2014, does it include the ability 
to replenish and replace equipment that is worn out or damaged 
or destroyed in the fight.
    And I would say that whatever that number is you would have 
to have some budget line there to do that. Right now, we are 
just trying to find out exactly where we are, what the baseline 
is, you know, how much do they have because if there is still 
money there to replace things and you can't replace it unless 
they report that it has been damaged or broken.
    So the accountability thing is going to come first before 
the sustainment. On the medical, I know that they are working 
on an organic medical capability but I believe right now they 
are predominantly dependent upon, at least for battlefield 
evacuation, that we are the ones that are going to provide the 
primary source of medical care.
    But that is probably another area--I would have to get back 
to you because I am not aware of their long-term plan for that.
    [The information referred to can be found in the Appendix 
on page 53.]
    Secretary Flournoy. Having to, if I could, on the medical I 
think the model is training medics and first responders, if you 
will, inside the military. But they are really relying on their 
hospital structure for higher level care for their military 
members who are wounded.
    Mrs. Davis. While they do have a national hospital, I think 
that a lot of the soldiers as I understand it do not go there 
but maybe there are other hospitals in the area.
    Okay. Thank you. I appreciate your comments and just 
quickly, we have a group of Afghan parliamentarians who will be 
coming at the end of October into November from the Defense 
Committee. And so I would just like to say there may be some 
things that we can be helpful with here and if you would like 
to pass that along, that would be great. Thank you.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mr. Thornberry. Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Madam Secretary, General, thank you for doing a very 
difficult job very well, we appreciate both of you and your 
service. I want to ask some questions about the strategic 
context in which these decisions are being made.
    Secretary, I think this would be a question for you. What 
was the basis of the alliance between Al Qaeda and the Taliban?
    Secretary Flournoy. I think the basis was a combination of 
shared ideology and the fact that the Taliban were willing to 
provide safe haven for Al Qaeda in Afghanistan. But Mullah 
Omar, the head of the Taliban was very much the spiritual--one 
of the spiritual leaders that Osama bin Laden followed or 
looked to.
    Mr. Andrews. I don't want to overstate this, but do either 
of you think it is a correct statement generally that Al 
Qaeda's presence within Afghanistan has been dramatically 
reduced from what it was a decade ago?
    Secretary Flournoy. That is a true statement.
    Mr. Andrews. And Al Qaeda's capabilities around the region, 
around the world, are existent but severely degraded?
    Secretary Flournoy. I think we have seen Al Qaeda senior 
leaders and their corps that is in--predominantly in Pakistan 
under tremendous pressure, severely degraded. I think some of 
the affiliates elsewhere in Africa, in the Arabian Peninsula 
are actually rejuvenating.
    Mr. Andrews. I agree with that and--General, to you and 
those that you work with and the Secretary, to you--that you 
work with, this is a tremendous credit to both the civilian and 
military uniform side of the Defense Department, job well done.
    Is there any evidence that the Taliban, independent of Al 
Qaeda, has ever engaged upon threats against Americans in the 
United States outside the borders of Afghanistan?
    Secretary Flournoy. I think it depends on how broadly you 
define the Taliban. But their affiliated groups certainly have. 
But the Taliban's primary focus has been on attacks in 
Afghanistan and in Pakistan.
    Mr. Andrews. That is my understanding as well. And let me 
ask you a question that--I don't mean to be rhetorical--I mean 
it to be literal. What is the nature of the risk then that 
exists today within Afghanistan? Are we there to fortify the 
Karzai government or are we there to protect our own people 
against a significant risk to us?
    Secretary Flournoy. I believe we are there as the President 
has stated for the core goal--that is disrupting, dismantling, 
and defeating Al Qaeda and preventing Afghanistan from 
returning to become a safe haven.
    I think if we were to withdraw without degrading the 
insurgencies sufficiently, without building up the ANSF 
sufficiently, you could see either the fall of the Afghan 
government or a return to civil war that could put the Taliban 
back in power and once again recreate the safe haven for Al 
Qaeda.
    Mr. Andrews. Do you agree with the proposition that we 
severely degraded the Taliban in 2001 and 2002, that they were 
in pretty bad shape after that?
    Secretary Flournoy. Yes. Yes, I do. But many of them fled 
across the border.
    Mr. Andrews. And do you agree with the proposition that 
they certainly bounced back and are a very virulent force by 
2006, 2007, 2008, 2009?
    Secretary Flournoy. In the absence of adequate pressure.
    Mr. Andrews. Yeah. Now, do you think--to what extent do you 
think that was absence of adequate pressure and to what extent 
do you think that was a civil, legal, economic, social vacuum 
that was created within Afghanistan that they filled?
    Secretary Flournoy. I think it is a combination of the two, 
which is why we are trying to both apply pressure and create a 
different set of governance and other conditions on the ground 
that will be very inhospitable to them over time.
    Mr. Andrews. I think you are a very able--of that position. 
I will tell you that the burden of proof you have to meet is 
this one that the American people have and I frankly 
increasingly have.
    In the last decade in Afghanistan, we spent a couple 
thousand of American lives, 10 years and hundreds of billions 
of dollars to give the Afghans a chance to build a stable 
society. They have not done so to any significant degree of 
success.
    And I think that our collective patience to continue that 
effort if wearing pretty thin. What would you say to that?
    Secretary Flournoy. I would say that I understand the 
weariness and the impatience and I think everyone who is 
involved in this mission shares that impatience. The President 
has been very clear that this is not an open-ended commitment.
    Unfortunately, between the years 2003 and 2008, we did not 
adequately resource this mission. This was an economy of forced 
effort. We lost ground and we lost time.
    Mr. Andrews. My time has expired----
    Secretary Flournoy. We are now making tremendous progress 
that we believe can reach our core goal.
    Mr. Andrews. My time has expired. I would simply say in 
closing though, that I hope we don't repeat the mistake of that 
period and not apply pressure in Africa and other venues where 
Al Qaeda may be strengthening itself because we are stuck in 
Afghanistan.
    Secretary Flournoy. I think our broader global counter-
terrorism efforts are very much focused on those affiliates and 
going after exactly----
    Mr. Andrews [continuing]. I think it should be our 
principal focus. Thank you very much.
    Mr. Thornberry. I had yield to myself. And that is part of 
the reason isn't it, Madam Secretary, that when we talk about 
significant budget cuts, understanding the impact of this 
global effort which we must maintain, is one of the things all 
of us must keep our eye on.
    We had a hearing earlier today with Admiral McRaven talking 
about the Special Operations Command part of that across the 
world and so I think the point the gentleman makes that we 
can't take our eye off any of these points is exactly right 
because of the concern.
    Let me just try to understand something a little bit 
better. In your statement you talked about efficiencies and 
cost savings efforts that allow there to be a $1.6 billion 
reduction in the fiscal year 2012 budget request to develop the 
ANSF.
    That seems like a big decrease, that is like a 10-percent 
efficiencies because we are doing fans and not air-
conditioners. Can you help me understand this a little bit 
better, and upfront my concern is we could be penny-wise and 
pound-foolish about doing this job right.
    Secretary Flournoy. Right let me start by saying there is 
no lessening of the commitment to the ANSF as a critical part 
of the strategy. There is no sort of taking our foot off the 
gas in this respect. What has happened is General Caldwell has 
done a masterful job of really focusing on the stewardship of 
these resources.
    And so, he has renegotiated dozens, if not hundreds of 
contracts to reduce the margins, to reduce overhead, to get 
more value for our investment. We, with experience, have 
actually seen these units in the field. We have adjusted 
equipment tables associated with units.
    When you actually found that the unit wasn't using 
something at the rate you thought or didn't need as much, we 
have adjusted those equipment tables which were set up in 
theory and now are informed by practice and are better matched 
to the units.
    We have gone for this ``Afghan First'' initiative which is 
everything that can be produced of quality in Afghanistan 
should be produced in Afghanistan. So clothing, boots, basic 
equipments, those kinds of things now in Afghanistan, much, 
much, much more cost effective to do it that way, and by the 
way, helpful to their economy and more sustainable.
    And then on the construction piece this is sort of you 
know, so much of the construction is done. This is really 
affecting the last third or so of the facilities construction. 
But we discovered is that using traditional Afghan building 
methods, it can be 120 degrees outside, you walk into the 
building and it is adobe, it is 80 degrees inside with a 
ceiling fan. And, you know, next door you have an air-
conditioned facility that is struggling with lots of fuel and 
air-conditioning trying to get it to 80 degrees.
    So if we can build something that gets the same result but 
is less costly and more sustainable in an Afghan context that 
is the way to go. So these are the kinds of things that he has 
been doing to bring the cost down but there is no reduction in 
the sort of the quantity and quality, the output in terms of 
the actual capability we are going to get for that money. So 
there is no reduction in commitment.
    Mr. Thornberry. Well, you will get cheers from everybody 
for doing as a good a job or better job for less money and 
using local methods and then so forth as you described I think. 
But what we just want to keep asking about is, are we 
increasing the risk to our troops and are we making it more 
difficult to accomplish the mission?
    So I appreciate--your understanding is we continue to ask 
those questions. Let me go back for just a second to the Afghan 
Local Police and village stability operations that Mr. West 
brought up.
    As I understand that some folks have expressed interest in 
growing the Afghan Local Police program to as many as 30,000 
participants. You said where it is 7,000 to 8,000 now.
    Do you have a goal for where to go with that and a path on 
how to get there, understanding the limitations of our Special 
Operations Forces that we were just talking about and so forth?
    Secretary Flournoy. I don't think there is any ceiling on 
how far this can go based on its success, but I think the rate 
of growth has to be paced by whether the conditions are right 
with the support of the local shura and whether you have the 
resources necessary for the oversight.
    The oversight and the partnering is key. And General Neller 
can speak to this. But one of the things we have done is we 
have actually put conventional forces under the Special 
Operations Forces to fill out their ranks and enable them to 
cover more territory but I will let him speak to that.
    General Neller. As I understand it, Congressman, there is--
I think there are 77 sites that have been approved and we man 
46 and that comes out to about to 7,600 people. And initially 
it was just the Special Forces team that would split and go to 
the village and we realized we just didn't have the capacity to 
get as much coverage.
    And so then General Petraeus requested a couple of 
conventional units and what they did basically is he just kind 
of broke up the Special Operators and gave them a group of 
soldiers in this case to give them the security and ability to 
move around.
    And so, you basically doubled and tripled your capacity, 
and so, that has gotten you to this point. So whether or not 
these other ones are dependent upon I couldn't tell you, I can 
find out if we are not doing the rest of them that have been 
approved because we don't have capacity.
    I do know that SOCOM [Special Operations Command] the other 
day reported, for the first time, they had actually 
transitioned the oversight of one of these operations to 
Afghans. So part of the transition process is to put Afghan 
police in with the ALP so now we have police working with 
police.
    So, I mean, everything is really being transitioned, not 
just the security operation of the police and army. We are 
transitioning the education and all the stuff that currently 
coalition trainers are doing, this being transitioned to 
Afghans. We are evaluating all the ministries and there are 
people in there that are advising them.
    So I mean, this is a whole government effort here and it is 
going to take some time but I think it is paying off. So the 
ALP thing I had just seen the number 30,000 as far as what 
the--but I haven't seen as a goal but the issue probably would 
be capacity and who we would get to do that.
    Mr. Thornberry. Well, I agree with you it is encouraging to 
see, in effect, one of these sites graduate to where they can 
completely stand on their own two legs. I would be interested, 
if there is a projection for growth and what that would be, and 
understanding again the deal is to do it right and not just to 
do a lot of it and we are limited on our side. But if you all 
have something like that I would be interested to just kind of 
see that projection, because again, I hear over and over it is 
one of the most promising developments going on and so 
therefore it is of particular interest to us.
    The gentleman from Texas, Mr. Reyes, is recognized for 5 
minutes.
    Mr. Reyes. Thank you, Mr. Chairman, and thank you both for 
being here. I apologize, I had a conflict and so I couldn't get 
here for the full hearing but I did want to ask hopefully just 
a brief question.
    People are critical of the President's policy to reduce 
forces by the end of the year. Some people think it is too 
much, some people think it is not enough.
    I am curious to hear you comment on how the scheduled 
reduction in strength by the end of this year is going to 
impact or affect our ability to continue to do the training of 
the Afghan forces.
    I am sure somebody has been tracking that, so can you 
comment on how that might impact or is it going to impact it at 
all?
    General Neller. We are waiting for General Allen to come 
back with his plan on how we are going to get down to 91,000 by 
the end of this year. I would imagine based on what I am seeing 
though, that because we are training thousands of Afghans to be 
instructors at these schools, where we have kind of stood them 
up and we mentored the instructors and help with the training, 
that the number of people involved with NTM-A might go down 
somewhat, whether that would be part of the reduction.
    Right now we are just under 98,000 and so we have to drop 
about 7,000 to get to 91,000 by 31 of December. That remains to 
be seen. I don't have any concerns this year that that will 
significantly impact the quality of the instruction. I think 
the metric I would be looking for is how many instructors, how 
many schools have we transitioned, you know, how many Afghans.
    So it is kind of like they stand up, we stand down, we 
might keep people there to watch and quality control their 
instruction to make sure they continue to do the stuff for a 
period of time. But eventually we are going to--they are going 
to have to do it by themselves.
    As far as the number in general I don't have any concerns 
that will negatively affect either the training or our 
operations through the end of this year.
    Secretary Flournoy. Sir, just to give you one example. Last 
weekend I was in Kabul and I went to the police training 
academy. All of the trainers and those who run the school are 
Afghans. Standing in the background are a mixture of ISAF 
forces, Italian carabinieri, Canadians, et cetera.
    So monitoring, you know, helping to mentor some of the 
trainers, it is already happening. This is the number one 
training academy for the police in the capital city. It is 
already Afghan-run, Afghan trainers, so we are well down the 
line in many of the training areas.
    Mr. Reyes. Very good. Thank you, Mr. Chairman, and thank 
you both.
    Mr. Thornberry. I think we are done. Thank you all again 
for being here, and with that the hearing stands adjourned.
    [Whereupon, at 2:15 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           September 22, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 22, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T0786.001
    
    [GRAPHIC] [TIFF OMITTED] T0786.002
    
    [GRAPHIC] [TIFF OMITTED] T0786.003
    
    [GRAPHIC] [TIFF OMITTED] T0786.004
    
    [GRAPHIC] [TIFF OMITTED] T0786.005
    
    [GRAPHIC] [TIFF OMITTED] T0786.006
    
    [GRAPHIC] [TIFF OMITTED] T0786.007
    
    [GRAPHIC] [TIFF OMITTED] T0786.008
    
    [GRAPHIC] [TIFF OMITTED] T0786.009
    
    [GRAPHIC] [TIFF OMITTED] T0786.010
    
    [GRAPHIC] [TIFF OMITTED] T0786.011
    
    [GRAPHIC] [TIFF OMITTED] T0786.012
    
    [GRAPHIC] [TIFF OMITTED] T0786.013
    
    [GRAPHIC] [TIFF OMITTED] T0786.014
    
    [GRAPHIC] [TIFF OMITTED] T0786.015
    
    [GRAPHIC] [TIFF OMITTED] T0786.016
    
    [GRAPHIC] [TIFF OMITTED] T0786.017
    
    [GRAPHIC] [TIFF OMITTED] T0786.018
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 22, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T0786.019
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 22, 2011

=======================================================================

      
               RESPONSE TO QUESTION SUBMITTED BY MR. WEST

    General Neller. Overall, the Afghan National Army (ANA) continues 
its institutional and operational development, with some progress made 
towards greater professionalization of the force and development of 
critical enablers. Currently, there are seven Corps headquarters 
fielded as of September 2011. The ANA achieved a net growth of over 
1,700 personnel during September 2011 and is on track to achieve its 
November 2012 growth goal of 195,000 personnel.
    As of 1 October 2011, the 201st ANA Corps currently has fielded 
just over 14,000 of its authorized strength of 16,194. The 201st Corps 
continues to make operational progress. The Corps, and its subordinate 
elements, operate in many of the most dangerous geographic areas in 
Afghanistan. The Corps is healthy with respect to fielded weapons; its 
health with respect to communications equipment continues to improve. 
Overall, the 201st ANA Corps is rated as ``effective with assistance,'' 
placing them in the top three ratings for ANSF units.
    Commando units, formerly under ANA Corps control, have now been 
consolidated underneath the Afghan Special Operations Command. The 1st 
Commando Brigade is the only currently fielded Commando Brigade in 
Afghanistan, and it is the proponent for all Commando programs, 
policies, procedures, and training within the Ministry of Defense. The 
1st Commando Brigade is a sub-command of the recently established 
Afghan Special Operations Command--it has (9) subordinate Commando 
kandaks stationed throughout Afghanistan. The mission of the 1st 
Commando Brigade is to conduct specialized light infantry operations in 
support of regional Corps counterinsurgency (COIN) operations, and the 
brigade provides a strategic response option for the Afghan government. 
Its specially organized, equipped, and trained soldiers provide the 
Ministry of Defense with the capability to rapidly deploy a credible 
military force to any region within Afghanistan. [See page 11.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MRS. DAVIS

    Secretary Flournoy. It would be most appreciated if you might 
convey the importance of the NATO-Afghanistan Enduring Partnership 
Declaration, noting that the U.S. and other NATO member nations are 
committed to a sovereign, independent, democratic, secure, and stable 
Afghanistan that will never again be a safe haven for terrorists. You 
could convey our commitment to continuing support for Afghanistan's 
future.
    You might also reinforce the message that--as members of 
Afghanistan's Parliament--they provide oversight and crucial support to 
the Ministries of Defense and Interior. We expect the Ministries of 
Defense and Interior to rely increasingly on a budget that these 
Parliamentarians provide for them in future years.
    Additionally, you could state that the Afghan Parliament will play 
an increasingly important role in generating revenue for the Afghan 
Government through the laws passed on taxation and laws that govern the 
business environment in Afghanistan. Clear and consistent laws will be 
important to encouraging private investment, which will bring more 
economic growth to Afghanistan over the long-term. [See page 18.]

    General Neller. Training for the care of wounded ANSF members has 
increased since 2005 and is continuing to increase. Improved care is 
being pursued simultaneously at several levels in the ANSF Health 
System (AHS) as ISAF continues engagement with the Ministry of Public 
Health (MoPH) and NATO Training Mission-Afghanistan works with the 
Ministry of Defense (MoD) and Ministry of Interior (MoI). In order to 
provide the best care for wounded warriors, both are working with the 
senior command structures in the Afghan National Army (ANA) and Afghan 
National Police (ANP) to optimize command, control, and coordination 
between these ministries--each with interdependent health functions. 
The Surgeon Generals and Medical Commands of the ANA and ANP are being 
mentored and guided to enable them and their organizations to provide 
appropriate care to their wounded warriors.
    The ANSF regional medical command teams, aided by ISAF mentors, are 
developing plans for evacuation and use of appropriate hospitals for 
casualty care (ANSF or MoPH). As coalition force support draws down, 
the ANSF will be better prepared to provide medical services 
organically.
    At the ANSF hospital and Troop Clinic level, the numbers and skills 
of doctors, nurses, and other health care professionals are being 
increased through a combination of mentoring and formal instruction 
programs. This includes specialist medical training for trauma care--
both within and external to their systems. The management of hospitals, 
including quality management, is being developed through training and 
mentoring.
    Geography currently dictates which facilities provide care. 
Currently, the ANSF operate the ANP and ANA National Hospitals in Kabul 
with four ANA Regional Hospitals in Herat, Kandahar, Mazar-e-Sharif and 
Gardez. An additional ANA hospital is planned for Gamberi/Jalalabad. In 
Lashkar-Gah, in Helmand Province, we are exploring innovative shared 
facilities between the ANA, the ANP, and potentially the MoPH and NGOs 
in the region. Several of the ANSF hospitals offer basic intensive 
care; this capability is being developed across the enterprise.
    At the battlefield level, we are continuing to train combat medics 
and physician assistants in sufficient quantities to staff both company 
and battalion aid stations, ambulances, and troop medical clinics. At 
this level, Damage Control Resuscitation can be carried out prior to 
transfer to the nearest hospital for surgery--be it an ANSF or MoPH 
hospital. ANSF medics on the ground are already proving capable and 
have impressed their coalition partner units with their skills and 
dedication.
    Presently, most ANSF evacuation from the field is performed by 
coalition MEDEVAC aircraft. As the capability and capacity for ground 
evacuation by ambulance and forward casualty care are developed, more 
evacuations will be performed by the ANSF. This proportion will be 
managed downwards in a planned and staged fashion. The percentage will 
be further decreased as the capabilities of the military hospitals 
continue to mature and MoPH hospitals are integrated into the 
evacuation system. We are taking ANSF injured directly to ANSF 
hospitals where feasible (approximately 25%). Those that start their 
treatment in Coalition Medical Treatment Facilities (MTFs) are 
transferred to ANSF facilities as soon as possible. [See page 18.]

                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. HANABUSA

    Secretary Flournoy. Detailed planning for the long-term sustainment 
of the Afghan National Security Force (ANSF) is an ongoing, active 
effort. The Combined Security Transition Command-Afghanistan is 
collaborating with NATO to analyze the long-term requirements for ANSF 
capability in light of current fiscal constraints. We are looking, for 
example, at how to reduce the remaining development costs and long-run 
sustainment costs. We are evaluating changes to the force size and 
shape that might be possible in a post-counterinsurgency environment, 
as well as ensuring that we are avoiding redundancies and building only 
to the standards required in Afghanistan. Due to these cost saving 
efforts, there will be a $1.6 billion reduction in the Fiscal Year 2012 
budget request for funding to develop the ANSF. This will mean that 
Fiscal Year 2011 ANSF spending of $11.7 billion will be the high point 
of the U.S. spending effort on the ANSF. Future years' costs will 
decline further as the mission shifts from force development to 
sustainment.
    It is important to be clear, however, that we envision an ongoing 
role for the United States and expect continued contributions from 
international donors. To that end, before retiring, then-Secretary of 
Defense Gates challenged our partners in the International Security 
Assistance Force to contribute a combined 1 billion euros annually to 
the NATO Afghan National Army Trust Fund.
    Although international support for the ANSF will likely be required 
for some time to come, ultimately, Afghanistan must continue to 
increase its funding for its own security. This will depend on 
continued economic growth and governance in Afghanistan, which, in 
turn, will benefit from the security that a properly sustained ANSF can 
provide, as well as from the stabilizing effects that can result from a 
strategic partnership between Afghanistan and the United States and the 
continued presence of U.S. forces. [See page 17.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 22, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. Why do we trust non-Americans to guard our troops in a 
war zone?
    Secretary Flournoy. In some situations, we must rely on Afghans and 
third-party nationals as part of the overall scheme for force 
protection. These private security contractors add to our organic force 
protection capabilities and can provide important additional 
operational benefits to the U.S. Government though extensive local 
experience and unique skills that the U.S. security workforce sometimes 
lacks. Such experience and skills include critical knowledge of the 
terrain and culture, the development of vital contacts with the local 
population, and the ability to converse in the local languages. Thus, 
the use of contracted security personnel to assist with the 
installation access control and guard services is consistent with 
operational objectives of maintaining security while building trust and 
respect with the local population and our allies and partners.
    Leveraging on private security contractors for services in which 
they specialize limits the requirement to divert our deployed forces 
from combat and other mission essential tasks. Absent these 
contractors, we would need to dramatically increase the size of the 
military forces we would deploy in theater.
    All private security contractors are vetted and trained according 
to guidance and procedures developed by the Geographic Combatant 
Commander consistent with Defense Department Instructions and Federal 
statute.
    Mr. McKeon. What are the other options to having private security 
contractors, like Tundra Security, assigned to protecting our troops in 
wartime and in foreign lands?
    Secretary Flournoy. In most overseas locations, our armed forces 
use contract security to provide access control at our military bases. 
This outer layer of protection is in addition to interior layers our 
forces provide for themselves. Contracting for these services in which 
the private contractors specialize, leaves more of our deployed forces 
available to carry out other mission essential tasks. Options other 
than contracted security to provide access control to the bases include 
increasing the deployed U.S. force strength and relying on host nation 
government security forces.
    The first option, increasing U.S. force strength, would incur 
additional costs beyond the number of military personnel performing 
guard functions. This option would increase housing and life support 
costs, affect readiness in the non-deployed force, and put additional 
strain on our reserve component forces.
    The second option, relying on host nation security forces, is not a 
practical option in most contingency areas. In these situations, U.S. 
military presence is required because of a breakdown or lack of 
government capacity, including with regard to police and military 
forces. Until conditions have improved enough that the host nation can 
build up its police and military beyond the levels necessary to secure 
its own civilian population, diverting host nation government forces to 
protect U.S. bases is not realistic.
    In Afghanistan, the Afghan Public Protection Force (APPF), under 
supervision of the Ministry of the Interior, is under development as a 
fee-for-service organization, and is being expanded to replace 
functions currently provided by private security companies (PSCs), 
which were banned by the President of Afghanistan. There is a bridging 
strategy for transition from PSCs to APPF that was effective as of 
March 22, 2011 and terminates March 22, 2012. ISAF bases and 
construction sites have an additional year to transition from reliance 
on PSCs to reliance on the APPF.
    Mr. McKeon. Who is directly responsible for approving the private 
security contracts and implementing this policy?
    Secretary Flournoy. Geographic Combatant Commanders provide 
tailored Private Security Contractor (PSC) guidance and procedures for 
the selection, training, accountability, and equipping of such PSC 
personnel and the conduct of PSCs and PSC personnel within their area 
of responsibility. The Geographic Combatant Commander is the sole 
authority who can approve the use of contracted security to guard U.S. 
or coalition military supply routes, military facilities, military 
personnel, or military property during contingency operations where 
major combat operations are ongoing or imminent.
    Within a geographic Combatant Command, sub-unified commanders (or 
Joint Forces Commanders) are responsible for developing and issuing 
implementing procedures. In Afghanistan, this would be the Commander, 
U.S. Forces--Afghanistan.
    Mr. McKeon. Is DOD aware of any ties between Tundra Security and 
any U.S. government or foreign governments?
    Secretary Flournoy. Other than U.S. Central Command's contracts 
with Tundra Security, DOD does not know of other contracts or ties 
between Tundra Security and the U.S. Government or foreign governments.
    Mr. McKeon. What criteria must be met by a contractor to be awarded 
a private security contract such as this?
    Secretary Flournoy. Contractors must submit a proposal that 
describes their capability to meet the criteria described in the 
request for proposal (RFP) and how they intend to fulfill those 
requirements. The RFP includes elements that are specific to the 
particular contract, but also includes elements common to all contracts 
for security functions as described in Part 159 of Chapter 32 of the 
Code of Federal Regulations and DOD Instruction 3020.50, ``Private 
Security Contractors (PSCs) Operating in Contingency Operations, Combat 
Operations or Other Significant Military Operations.'' These elements 
include, but are not limited to, matters such as background vetting and 
screening of personnel, training programs--including weapons training 
programs, weapons qualification, weapons procurement and storage--and 
appropriate licenses and certifications, and other requirements of 
local law. The proposal, or bid, must also indicate that the contractor 
can begin operations at the required start.
    Mr. McKeon. Now or in the past have former employees of Tundra 
Security ever worked for any agency of the U.S. Government?
    Secretary Flournoy. Other than U.S. Central Command's contracts 
with Tundra Security, DOD does not have information regarding whether 
former employees of Tundra Security currently work for, or have ever 
worked in the past for, other U.S. Government departments or agencies.
    Mr. McKeon. Why are these guards (private security contractors) 
allowed on base with loaded weapons? Is there threat to them or the 
convoys they escort on the base?
    Secretary Flournoy. The Office of the Under Secretary of Defense 
for Acquisition, Technology, and Logistics has primary oversight of 
this issue. Department of Defense regulations require each contractor 
employee to have individual arming authorization approval by Commander, 
U.S. Forces--Afghanistan, through the Armed Contractor Oversight 
Directorate. Static security guards are armed for their own self-
defense and the defense of others against a lethal threat posed to 
themselves, others in their vicinity, and--as a last resort--to stop 
unauthorized access to the installation that would threaten the lives 
of our service men and women. Convoy security is required to be armed 
from the point where the convoy is formed until the point where the 
convoy has arrived at its final destination. This is to provide 
seamless security to the convoy and its personnel and to avoid a 
vulnerability gap as the convoy begins or ends its journey. Weapons are 
loaded and unloaded at designated positions immediately before leaving 
the secured perimeter and again after re-entering a secured perimeter.
    Mr. McKeon. What kind of supervision are these guards under?
    Secretary Flournoy. The Office of the Under Secretary of Defense 
for Acquisition, Technology, and Logistics has primary oversight of 
this issue. Individual guards are under the routine supervision of the 
contractor's management staff. These include guard team supervisors, 
shift supervisors, and site managers. These supervisors are required to 
be sufficiently fluent in speaking, reading, and writing English. Site 
managers cannot be local nationals; they must be citizens of the United 
States, Australia, a NATO Member State, or an approved third country. 
The Contracting Officer's Representative (COR) is responsible for 
technical administration of the project to ensure proper government 
oversight of the contractor's performance. The COR is required to 
evaluate contractor performance according to the standards set forth in 
that contract. The Installation Commander and COR have the authority to 
relieve and/or permanently remove contractor personnel for any acts 
that put at risk the life, safety, or health of installation tenants.
    Mr. McKeon. How are the guards trained and who trains them?
    Secretary Flournoy. The Office of the Under Secretary of Defense 
for Acquisition, Technology, and Logistics has primary oversight of 
this issue. The contractor is responsible for providing and documenting 
all necessary training for the guards, as specified in the terms of the 
contract and according to a training program approved by the 
Contracting Officer's Representative (COR). The COR is required to 
evaluate that the required training has been performed to standard and 
is properly documented. Training must address the following tasks, at a 
minimum:

         1.   Security Common Tasks

         2.   International Code of Conduct for Private Security 
        Service Providers (November 9, 2010)--Specific Principles 
        Regarding the Conduct of Personnel

         3.   Law of Armed Conflict (LOAC)

         4.   Rules for the Use of Force (RUF)

         5.   Distinction among Rules of Engagement (ROE), LOAC and RUF

         6.   Host Nation Laws and Regulations

         7.   Ministry of Interior Instructions for Armed Security 
        Guards

         8.   Geneva Convention Relative to the Treatment of Prisoners 
        of War (August 12, 1949)

         9.   Combating Trafficking in Persons (CTIPS)

        10.   Local Customs and Courtesies

        11.   Civil and Criminal Liability under U.S. and Afghan Law

        12.   Standards of Conduct

        13.   Installation Policies/Rules

        14.   Compound (Base) Defense Plan

        15.   Combat First Aid

        16.   Health, Safety, and Hazardous Materials associated with 
        Armed Security Guard duties and military installations

        17.   Weapon Familiarization, Safety, and Qualification 
        (Training must be completed to an existing U.S. military 
        service standard)
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. OWENS

    Mr. Owens. General Neller, you indicated in your testimony that the 
ANSF and the ANP both need to have improved close air support to fully 
function. I would appreciate it if you could describe the length of 
time that it would take to develop a close air support capability and 
what the anticipated cost would be to accomplish this goal. 
Additionally, I would like to know if this cost has been built into 
existing funding mechanism.
    General Neller. The fielding of the Afghan Air Force is projected 
to be at 50% fill for equipment and personnel in November 2011. The AAF 
is scheduled for completion in 2016. The current estimate for long-term 
sustainment costs of the AAF is approximately $295 million. ISAF and 
NTM-A are currently re-evaluating all cost drivers for long-term ANSF 
sustainment in order to reduce costs. Projected costs will be adjusted 
as ISAF identifies cost savings and operational efficiencies.
    Specifically, a fixed-wing Close Air Support (CAS) platform, the 
Fixed-Wing Light Support Aircraft (LAS), is scheduled for acquisition 
beginning in 2013. The LAS program has a projected award of November 
2011. The $366M cost of the LAS program has been built into the 
existing funding mechanism. Initial operational capability is planned 
for October 2013, with final delivery scheduled for February 2015.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS

    Mr. Franks. Thank you for your testimony and being here today. In 
today's Wall Street Journal, there's an editorial about the recent 
assassination of Rabbani. This assassination came just days after the 
U.S. Embassy was attacked by the Taliban, and is mounting evidence that 
the Taliban are able to attack even heavily guarded areas in Kabul. 
Quoting the article, the author states, ``As Tuesday's killing shows, 
the Taliban doesn't want to reconcile. It wants to murder and maim its 
way to victory.'' To support this statement, the author quotes former 
Afghani presidential candidate Abdullah Abdullah and Coalition 
commander General Allen, respectively, ``This is a lesson for all of us 
that we shouldn't fool ourselves that this group, who has carried out 
so many crimes against the people of Afghanistan, are willing to make 
peace,'' and ``Regardless of what the Taliban leadership outside the 
country say,'' he noted, ``they do not want peace, but rather war.''

    A. Are the Afghan forces capable of autonomously succeeding against 
this enemy?

    B. If not, in your assessment, will they ever be capable?

    C. And given these statements quoted above, do you think it is 
prudent that we continue on the same timeframe for withdrawal of our 
troops? Or do these circumstances warrant a reassessment of the 
situation?
    Secretary Flournoy. A and B. Since November 2009, NATO Training 
Mission-Afghanistan (NTM-A) has made tremendous progress with its 
Afghan partners in developing the Afghan National Security Forces 
(ANSF). The sum result of its efforts--which include consolidated 
training, and an intense focus on literacy, leadership, and operational 
performance--is that the ANSF has been successful in taking the lead 
responsibility for security in areas of the country that have entered 
transition. The ANSF has already demonstrated its growing capability in 
areas where we have transitioned to Afghan security lead. Despite the 
Taliban's stated intent to disrupt security in transitioned provinces, 
the ANSF has consistently performed well and has been fully responsible 
for defeating Taliban efforts to reverse the transition in areas like 
Lashkar Gah, for example, where violence in August 2011 was 60 percent 
lower than in August 2010. By the end of 2014, this increasingly-
capable ANSF will have the lead security responsibility throughout the 
country.
    Coalition partners will continue to provide ``high-end'' combat 
enabler support, such as close air support, medevac capabilities, and 
intelligence to support ANSF operations in the near-term. As the ANSF--
with NTM-A support--builds its own enabler capacity, requirements for 
coalition support will decline, and Coalition forces will be able to 
shift to an over-watch role.
    C. Undeniable progress in many key areas--both operationally and in 
the development and professionalization of the ANSF--gives us 
confidence that the timeframe for completing the withdrawal of our 
surge forces by the end of summer 2012 and the transfer of lead 
security responsibility to the Government of Afghanistan by the end of 
2014 is achievable.
    The Department of Defense continually reassesses the situation in 
Afghanistan, and would make a recommendation to the President should 
the situation change and threaten our overall success. However, the 
strategy is working. Insurgent attack figures have been lower in the 
past two months than they were during the same time period last year. 
ISAF has assessed that the Taliban's ``inner shura'' has admitted that 
their summer campaign to take back Kandahar and Helmand failed. The 
Taliban's use of assassinations and high profile attacks, while 
concerning, is designed to capture public attention, following the 
failure of their broader operational campaign. Additionally, the 
enduring partnership between NATO and Afghanistan, and the strategic 
partnership the United States and Afghanistan are negotiating mean that 
Afghanistan will not be abandoned and time is not on the insurgents' 
side.
    Ultimately, we see the conflict having a political solution, and we 
will continue to support the Afghan-led reconciliation efforts that 
remain part of that process, despite the recent assassinations that 
show how difficult it may be. At the same time, progress on the 
military strategy is not predicated on reconciliation, and we will also 
continue to degrade the insurgency to levels the increasingly capable 
ANSF can handle, while reintegrating lower-level fighters who want to 
return to Afghan society and are prepared to sever ties to Al Qaeda and 
other terrorist groups, renounce violence, and support the Afghan 
constitution.

    Mr. Franks. Thank you for your testimony and being here today. In 
today's Wall Street Journal, there's an editorial about the recent 
assassination of Rabbani. This assassination came just days after the 
U.S. Embassy was attacked by the Taliban, and is mounting evidence that 
the Taliban are able to attack even heavily guarded areas in Kabul. 
Quoting the article, the author states, ``As Tuesday's killing shows, 
the Taliban doesn't want to reconcile. It wants to murder and maim its 
way to victory.'' To support this statement, the author quotes former 
Afghani presidential candidate Abdullah Abdullah and Coalition 
commander General Allen, respectively, ``This is a lesson for all of us 
that we shouldn't fool ourselves that this group, who has carried out 
so many crimes against the people of Afghanistan, are willing to make 
peace,'' and ``Regardless of what the Taliban leadership outside the 
country say,'' he noted, ``they do not want peace, but rather war.''

    A. Are the Afghan forces capable of autonomously succeeding against 
this enemy?

    B. If not, in your assessment, will they ever be capable?

    C. And given these statements quoted above, do you think it is 
prudent that we continue on the same timeframe for withdrawal of our 
troops? Or do these circumstances warrant a reassessment of the 
situation?
    General Neller. The concerted focus of the ISAF campaign remains to 
reduce the level of the insurgency while simultaneously increasing the 
operational effectiveness and capacity of the ANSF. As transition of 
geographic areas to Afghan control continues, the Afghan security 
forces will continue to demonstrate their capability to address these 
threats. In the future, existing ANSF capability will be bolstered by 
support from U.S. and coalition partners in the form of mentorship, 
advising, assisting, and the provision of various battlefield enabling 
capabilities.
    Growth in the operational capacity and professionalization of the 
ANSF remains vital to campaign success. This growth is being realized 
now. The ANSF is being properly trained and equipped and is developing 
the leaders and the people with the right vocational skills and the 
institutions and systems to make the ANSF an enduring force. This 
growth in ANSF capacity will mitigate the risks associated with the 
drawdown of U.S. forces into 2012 and beyond.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. SCHILLING

    Mr. Schilling. Looking to the future U.S. presence in Afghanistan, 
there are concerns about how its government will move forward both with 
security capabilities and financial sustainability with a proposed 
decrease in U.S. presence and support. How much are the incoming 
diplomats getting out and actually achieving the types of connections 
that the DOD has done in the past so that the proposed changes in 
operations goes smoothly and trust from the Afghani locals is 
maintained?
    Secretary Flournoy. While I defer to the Department of State for 
the details, I will say that incoming diplomats and other U.S. 
Government civilian officials are getting out, achieving connections 
and building trust with the Afghan people--especially in the areas of 
governance and development. And, the Department of Defense is working 
closely with these civilians to help facilitate their work, which is 
centered around the mission to enable the Afghan Government and the 
Afghan people to: counter the insurgency and prevent the use of Afghan 
territory by international terrorists, build a state that is 
accountable and responsive to its people, and establish a foundation 
for longer-term development.
    Mr. Schilling. Can the attrition rate of Afghan forces be better 
addressed by focusing in increasing literacy rates, or is the culture 
more of a stumbling block?
    Secretary Flournoy. Continuous combat operations, repeated 
assignments that are far from home, and leadership shortcomings in the 
fielded force are among the principal contributors to attrition in the 
Afghan National Security Forces (ANSF).
    Monthly attrition in the Afghan National Army (ANA) has averaged 
2.3 percent since November 2009, as compared with our objective of 1.4 
percent. Over the past twelve months, ANA attrition has ranged as high 
as 3.2 percent and as low as 1.9 percent. In the Afghan National Police 
(ANP), the average monthly attrition since November 2009 has been on 
target at 1.4 percent, and for the past twelve months has ranged from a 
high of 1.9 percent to a low of 1.0 percent. (It should be noted, 
however, that actual attrition is less than what those figures reflect, 
as many ANSF personnel who were taken off the rolls earlier end up 
returning to their units.)
    The Afghan Ministries of Defense and Interior--in partnership with 
the International Security Assistance Force (ISAF)--are working to 
address the attrition challenge.
    For example, with a DOD combined assessment showing that 98 percent 
of attrition in combat units is a function of poor leadership, the 
Ministries, coalition, and Afghan forces are working to identify and 
replace poor leaders. Additionally, the coalition and Afghan Government 
have made ANSF leader development a top priority. To that end, the 
Afghan Government recently reached an agreement with the United Kingdom 
(U.K.) to develop a one-year officer candidate school--modeled after 
the U.K. Sandhurst Academy--to train 1,200 high-quality officers 
beginning in 2013. In the Afghan police force, nearly 3,000 police OCS 
candidates began training--to include leadership studies--in July at a 
number of sites, including the National Police Training Center-Wardak, 
the Regional Training Center-Mazar-e-Sharif, the ANP Academy, and a 
new, overseas police training center in Sivas, Turkey.
    Also central to the leadership development effort has been the 
building of a cadre of Afghan trainers that help set a disciplined, 
professional example for fellow Afghans. The NATO Training Mission-
Afghanistan teaches these ANSF personnel to be trainers and leaders, 
and then mentors them as they train new Afghan recruits--thereby 
creating a professional, Afghan-owned foundation for long-term ANSF 
development. Today, there are more than 3,200 Afghan trainers, and we 
plan to add 1,300 more by November 2012.
    Additionally, we are working with the Afghans to implement a number 
of attrition-reducing programs, including providing ``soldier-care'' 
training for ANSF leaders, extending the leave policy from twenty to 
thirty days, placing Ministry pay mentors in the corps, and 
implementing a predictable rotation cycle for units.
    Mr. Schilling. How much can the rest of the coalition forces take 
on in terms of the funding necessary to maintain Afghan safety and 
security as U.S. troops leave? Will the Coalition Countries be able to 
take on the same percentages or possibly more? What are we likely to 
see in terms of their financial support?
    Secretary Flournoy. Our allies and partners have contributed a 
total of 334 million euros to the Afghan National Army (ANA) Trust Fund 
since 2007. Countries other than the United States have also 
contributed nearly $1.37 billion since 2002 to the Law and Order Trust 
Fund for Afghanistan, which supports the Ministry of Interior. Although 
future annual operating costs for the Afghan National Security Forces 
(ANSF) will be less than what we are currently spending, Afghanistan 
will continue to rely, in part, on international assistance to sustain 
the ANSF for many years to come. In order to reduce the gap between 
ANSF sustainment needs and available resources required, former 
Secretary of Defense Gates challenged our allies to provide 1 billion 
euros annually to the ANA Trust Fund as part of the burden sharing and 
to help make the ANSF capable of sustaining security beyond transition. 
Secretary Panetta supports this initiative and looks forward to 
receiving firm commitments that can be announced at the NATO Summit in 
Chicago next May.
    Mr. Schilling. What are the likely issues that will come up that 
State Department will need to mitigate as U.S. security forces leave?
    Secretary Flournoy. As U.S. forces draw down, they will transfer 
lead responsibility for security to the ANSF through 2014. We expect 
some enduring U.S. military presence to remain in order to continue 
ANSF training/assisting and counter-terrorism operations. The drawdown 
will be fully coordinated and implemented with the Department of State, 
which will continue its key civilian activities.
    During this period, the U.S. and its coalition partners will be 
supporting the Afghan Government's 2014 presidential election and 
transition of political power. An election process and new president 
that are perceived as legitimate will be important to maintaining the 
Afghan population's support for the Afghan Government.
    The State Department will also adjust the U.S. civilian footprint 
and mission, realigning the civilian presence in areas where civilians 
had been co-located with the military, and transitioning from 
stabilization-focused activities to a longer-term development approach.
    Mr. Schilling. What is the state of Afghan intelligence 
capabilities at this point in time? Will they be able to continue 
without the amount of support that the U.S. provides?
    Secretary Flournoy. The Department of Defense--in close cooperation 
with other U.S. Government agencies--continues to work with the ANSF 
and Afghan intelligence units to improve their intelligence 
capabilities. Based on this support and the lessons learned from our 
own intelligence community, the Afghan Government's capacity to conduct 
intelligence-related operations has improved considerably. These 
improvements--along with their steadily increasing military and 
counterinsurgency skills--will allow them to increasingly take the lead 
for security within their country. Nonetheless, intelligence is an area 
in which Afghans will likely continue to require U.S. support which we 
consider in our own interest to provide.

    Mr. Schilling. Looking to the future U.S. presence in Afghanistan, 
there are concerns about how its government will move forward both with 
security capabilities and financial sustainability with a proposed 
decrease in U.S. presence and support.

        a.   How much are the incoming diplomats getting out and 
        actually achieving the types of connections that the DOD has 
        done in the past so that the proposed changes in operations 
        goes smoothly and trust from the Afghani locals is maintained?

        b.   How much can the rest of the coalition forces take on in 
        terms of the funding necessary to maintain Afghan safety and 
        security as U.S. troops leave? Will the Coalition Countries be 
        able to take on the same percentages or possibly more? What are 
        we likely to see in terms of their financial support?

        c.   What are the likely issues that will come up that State 
        Department will need to mitigate as U.S. security forces leave?

        d.   What is the state of Afghan intelligence capabilities at 
        this point in time? Will they be able to continue without the 
        amount of support that the U.S. provides?
    General Neller. The issue of continued funding contributions from 
coalition countries is an extremely important one and is being examined 
closely by ISAF and the interagency community. Future U.S. and 
coalition force contributions are not definitively known at this point. 
Within the context of the development of an Afghan economic strategy, 
however, there are robust efforts underway to analyze the impact of 
Transition to Afghanistan's economic development. As Transition unfolds 
in Afghanistan, diplomatic efforts continue, with the following goals:

        (1)   encourage the Afghan government to develop a sustainable 
        and achievable economic strategy;

        (2)   clarify our long-term commitment to Afghanistan's 
        economy, consistent with U.S. resource constraints;

        (3)   secure donor support for continued investment in 
        Afghanistan;

        (4)   mitigate the economic impact of Transition on 
        Afghanistan's economy;

        (5)   reinforce a common message from the international 
        community to Afghanistan and countries in the region to take 
        policy actions to attract private sector investment and promote 
        growth and trade.

    Afghan intelligence capabilities continue to develop. The U.S. 
remains committed to continued support to the development of Afghan 
intelligence capabilities.
    Mr. Schilling. Can the attrition rate of Afghan forces be better 
addressed by focusing in increasing literacy rates, or is the culture 
more of a stumbling block?
    General Neller. The primary factors influencing attrition rates in 
the ANSF are: (1) pay issues; (2) irregular leave; (3) prolonged 
periods in high-risk areas; and (4) poor leadership. ISAF and NTM-A are 
working with the ANSF to address these issues. The ANSF, with 
assistance from ISAF, is implementing an electronic pay system to 
ensure all members of the ANSF receive their pay and opportunities for 
corruption are reduced. The ANSF is in the process of implementing 
leave and mandatory rotation policies to allow soldiers time to visit 
their homes and limit time in high-risk areas.
    The issue of leader development within the ANSF is being addressed 
by NTM-A; it remains the first priority of the NATO Training Mission-
Afghanistan (NTM-A). Effective and professional leaders (officer and 
Non-Commissioned Officer) within the ANSF that are trained and educated 
with an ethos of service are deemed absolutely essential to overcoming 
all challenges, especially those posed by attrition.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
